                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: Al3050060                                                                      Page 1 of 1




                  We conducted an inquiry aboutthe non-disclosure of the Subject's 1 external
         appointments on his biographical sketches in proposals submitted to NSF. He stated that he did
         not list his appointments in his biographical sketch because they were "courtesy" non-salaried
         appointments, and his related activities were outside the scope of his nine-month faculty
         appointment. He provided copies of memoranda of understanding with the university that
         describe these appointments. However, these memoranda were not transmitted to the Sponsored
         Research Office. We concluded that the Subject's appointments should have been included on
         his biographical sketch, since they provide advantages that directly benefit the Subject's NSF and
         university-supported research. We closed the case with a letter to the Subject asking him to
         completely disclose his appointments in future submission ofNSF proposals.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11/02)
